Case S20H0145

&

Filed 05/26/2020

Page 11 of 19

SUPREME COURT OF GEORGIA
Case No. S20H0145
May 18, 2020

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
ERIC MILLER v. JAMES DEAL, WARDEN.
Upon consideration of the application for certificate of
probable cause to appeal the denial of habeas corpus, it is ordered
that it be hereby denied.
All the Justices concur.
Trial Court Case No. 2019-HC-48

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

f

)

.APP£a/A/X £
tl

Clerk

J

J-

SUPREME COURT OF GEORGIA
Case No. S20H0145
June 16, 2020

The Honorable Supreme Court met pursuant to
adjournment.
The following order was passed.
ERIC MILLER v. JAMES DEAL, WARDEN.
Upon consideration of the Motion for Reconsideration filed
in this case, it is ordered that it be hereby denied.
All the Justices concur.

SUPREME COURT OF THE STATE OF GEORGIA
Clerk's Office, Atlanta
I certify that the above is a true extract from the
minutes of the Supreme Court of Georgia.
Witness my signature and the seal of said court hereto
affixed the day and year last above written.

, Clerk

i-.

ARp££jbD( C
_)

